U.S. Department of                       Inspector General        Office of Inspector General
Transportation                                                    Washington, DC 20590
Office of the Secretary
of Transportation

June 17, 2010

The Honorable James L. Oberstar
Chairman, Committee on Transportation
 and Infrastructure
United States House of Representatives
Washington, DC 20515

The Honorable Jerry F. Costello
Chairman, Subcommittee on Aviation
Committee on Transportation
 and Infrastructure
United States House of Representatives
Washington, DC 20515

Dear Chairmen Oberstar and Costello:

On November 19, 2009, 129 of the Nation’s air traffic facilities experienced an outage
of the Federal Aviation Administration’s (FAA) telecommunications that delayed
thousands of travelers and grounded hundreds of flights nationwide. As you
requested, we conducted a review to (1) identify the cause of the FAA
Telecommunications Infrastructure (FTI) outage, (2) review FAA’s corrective action
plan to prevent future critical outages, (3) examine FAA’s ability to oversee FTI and
the contractor, and (4) identify oversight vulnerabilities or best practices of other
critical systems in the National Airspace System (NAS) owned or operated by the
private sector.

Summary
The November 2009 FTI outage raised questions about FAA’s and the prime
contractor’s (Harris Corporation) ability to effectively manage FTI as well as the
integrity of the network design and whether it can support initiatives for the Next
Generation Air Transportation System (NextGen). Specifically, we found:

  • A Harris technician incorrectly configured an FTI router (which directs air traffic
    data, such as flight plans, through the network) at Los Angeles Center. The error
    caused the FTI network to send air traffic data on the wrong routes, which blocked


CC-2010-012
                                                                                                                         2


      approximately 75 percent of the routes across the FTI fiber optic network. Service
      restoration was delayed for 5 hours because an automatic tool that alerts
      technicians to network failures and their locations did not work as intended.
      Therefore, Harris technicians could not readily identify the source of the problem,
      which could have minimized the impact of the error on the NAS.

    • FAA and Harris have taken corrective actions to prevent another critical outage.
      These include deactivating the FTI legacy network and router configuration design
      (which are now obsolete) that caused the outage and fixing the automatic alert
      tool. However, both FAA and Harris officials acknowledged that there is still a
      risk of critical outages as new NextGen services are added to FTI’s new fiber optic
      network.

    • FAA’s oversight of the FTI contractor could have been more effective. FAA was
      unaware that Harris officials had configured the network in error and made other
      procedural errors. In 2008, we recommended that FAA develop improved
      controls over the contractor’s FTI equipment configuration and take steps to
      prevent unscheduled outages and restore them on time to improve service
      reliability. 1 While FAA agreed to take action, we found it still has problems
      ensuring FTI services are restored within contractual requirements. To its credit,
      FAA plans to address this and other FTI issues, in response to the findings of an
      independent review panel convened to investigate the November outage.

    • FAA has not developed best practices to oversee NAS systems not owned or
      operated by the Government even though it is increasingly shifting more
      acquisitions and services to the private sector to reduce costs. Moreover, FAA’s
      internal reports have concluded that FAA and Harris need to identify FTI network
      vulnerabilities—a critical step highlighted by the fact that the program office for
      the Automatic Dependent Surveillance-Broadcast (ADS-B), a key NextGen
      system, has decided against using FTI due to network reliability and security
      concerns.

Background
The FTI network provides voice, data, and video communications that support
operations at more than 4,000 FAA facilities and remote sites nationwide, as well as
some Department of Defense facilities.          The network provides more than
25,000 telecommunications circuits and service delivery points, upgraded switching
and routing services, and centralized network monitoring and control. As a major
contributing system to NextGen, initiatives are underway to further upgrade the FTI
fiber optic network to increase capacity, or bandwidth; 2 provide greater flexibility;
1
    OIG Report Number AV-2008-089, “FAA’s Progress and Challenges in Meeting FTI Transition Goals,”
    September 30, 2008. OIG reports are available on our website: www.oig.dot.gov.
2
    Bandwidth refers to a data rate measured in bits per second, such as network throughput (i.e., the average data rate of
    successful data transfer through a communications path).


CC-2010-012
                                                                                                                          3


and continue to reduce latency. 3 FAA’s mission for FTI is to achieve an integrated
suite of products, services, and business practices to better meet the
telecommunications needs of the NAS. With FTI, FAA will transition from
traditional dedicated circuits to on-demand service where appropriate. According to
FAA, these services will provide lower unit cost, more efficient bandwidth utilization,
improved information security, and state-of-the-art business processes and
technology.

In July 2002, FAA awarded an Indefinite Delivery Indefinite Quantity contract to
Harris to begin transitioning FTI into the NAS and to provide management and
support functions for the FTI network. FAA does not own the network, and its
contract with Harris is essentially a 15-year lease that expires in 2017 and covers the
cost of acquiring, operating, and maintaining the FTI network. The contract has a
current maximum value of $1.4 billion and a ceiling amount of $3.5 billion, with no
limits on quantities, meaning there is almost no limit on Harris’ ability to sell
additional services to FAA until the ceiling is reached. FAA has expended about
$1.2 billion on the contract and currently spends about $146 million annually on the
FTI program.

Harris Configuration and Procedural Errors Caused the FTI Outage and
Delayed Service Restoration
On November 19, 2009, FAA’s FTI system experienced a NAS-wide outage while
Harris was transitioning FTI Internet Protocol (IP) services from a legacy network to
the new FTI Operations Internet Protocol (OPIP) fiber optic network. 4 Our review
found the root cause of the outage occurred when a Harris engineer incorrectly
configured one of several temporary routers (known as Logical Transition Bridges)
between the old and new networks. These “bridges” were installed at the 26 core FTI
sites with different route maps to allow continued flow and separation of air traffic
information (e.g., flight plans and weather data) across both networks and prevent
routing problems during the network transition. The configuration error essentially
went unnoticed and ultimately created a “domino effect” across the FTI network when
all circuits on the new fiber optic network failed, resulting in 820 flight delays.

Specifically, all Air Route Traffic Control Centers (ARTCC), Network Enterprise
Management Centers, and the FAA Command Center did not have the data they rely
on to manage flights when multiple FAA systems were affected by the FTI outage.
These included the following:


3
    Latency expresses how much time it takes for data to get from one designated point to another. Excessive latency creates
    bottlenecks that prevent data from filling the network pipe, thus decreasing effective bandwidth.
4
    IP typically uses various routing and communications procedures and communicates with multiple sites simultaneously.
    IP services do not use the actual Internet; they just follow similar procedures. With FTI, IP services were previously
    carried over the Asynchronous Transfer Mode circuits. In the new fiber optic network, IP services are now carried over
    optical circuits, which will increase bandwidth and reduce data latency.


CC-2010-012
                                                                                      4


 • Enhanced Traffic Management Service, which provides information on a national
   level to predict traffic surges, gaps, and volumes based on current and anticipated
   airborne aircraft.
 • National Airspace Data Interchange Network, which distributes flight plan data,
   weather information, and other air traffic control messages within the NAS.
 • National Defense Program Surveillance, which provides surveillance data from
   FAA long- and short-range radar to Department of Defense and Department of
   Homeland Security agencies.

The error that led to the outage and flight delays was first made on October 21, 2009,
with the temporary router installed at Los Angeles Center, during the Salt Lake City
Center’s transition to the fiber optic network. The error essentially made the FTI
network “believe” that air traffic information could be routed either locally within Los
Angeles airspace or between Los Angeles and Salt Lake City airspace. When the link
between the two facilities was reestablished after installation, the authorized routes
between the networks and Los Angeles and Salt Lake City resumed operations,
masking the error, which remained dormant in the system.

On November 19, 2009, a Harris engineer took down the link between Los Angeles
and Salt Lake City Center to place a new router in service on the FTI fiber optic
network at Los Angeles. The new router also contained the configuration error, since
the route map (which failed to define the authorized traffic between the two networks)
was copied from the replaced router. The error occurred because the engineer failed
to append a needed “no” statement to the configuration file after replacing the router
and before reestablishing the link between the two facilities. As a result, when the
link went live, the network sent air traffic data on the wrong routes between the
airspace locations and resulted in multiple outages. According to Harris officials, the
failure to append the “no” statement caused the network to begin using the wrong
routes and sending network traffic through Los Angeles, which impacted services at
129 facilities instead of the 21 that should have been impacted. The error also broke
down the separation between the old and new networks, causing routing errors when
the FTI network began sending all network traffic through Los Angeles Center to Salt
Lake City Center. The link between the two facilities did not have the bandwidth to
support all traffic, and approximately 75 percent of routes were blocked across the
FTI fiber optic network for 5 hours while Harris tried to find the problem.

Harris eventually started restoring services after technicians discovered that taking a
core router offline at Salt Lake City eased the problem. The FTI network had over-
utilized core routers at that site when channeling all the additional traffic over from
Los Angeles. Regardless of the initial error, the impact on the NAS could have been
minimized if Harris had identified the source of the problem sooner. We found the
following procedural breakdowns contributed to delayed recognition of the problem:


CC-2010-012
                                                                                     5


 • An automated tool that alerts Harris personnel to network failures when any router
   central processing unit exceeds 60 percent of its utilization for 10 minutes did not
   work as intended. This was due to a configuration error that suppressed the wrong
   alarms. As a result, a filter meant to silence recurring alarms for only a specific
   router at FAA’s Technical Center caused the alarms to be filtered for all routers on
   the FTI network.
 • Once Harris engineers were made aware of the outages, they started pursuing the
   wrong problem. They initially looked at backing out configuration changes to the
   network routers at the Los Angeles ARTCC and the Herndon, Virginia, Command
   Center, since the two most recent maintenance actions had been at these sites.
 • Harris mistakenly thought another router supporting Los Angeles ARTCC was the
   problem. Harris engineers were having trouble accessing the router remotely and
   sent a technician to reset the router manually. Harris later found that this router
   was not the problem, but this was a temporary distraction that further delayed
   service restoration.
 • Harris could not initially determine whether FTI was being over-utilized. Spot
   checks of core routers at other sites (but not Salt Lake City Center) did not
   indicate a general high-utilization level on other routers.

FAA Has Taken Corrective Actions To Prevent a Recurrent Outage, but
the Risk of Future Critical Outages Remains
FAA has eliminated the possibility that the events leading to the November 2009
critical outage could reoccur. As of December 13, 2009, all IP services were cutover
from the legacy network to the new FTI fiber optic network, thereby eliminating the
need for the temporary routers between the two networks. As a result, Harris has
deactivated the legacy networks and the route map configuration design used during
the transition. Harris officials state they have also corrected the problems with the
automatic alert tool. In addition, Harris is working to require support personnel to
actively monitor the FTI network during future maintenance releases that involve
installing or replacing core routers.

However, both FAA and Harris officials acknowledge that an inherent risk of critical
outages remains since Harris plans to transition more existing services and new
NextGen services to the FTI fiber optic network. Additionally, Harris will face
challenges and risks as it continues to design and build out the new fiber optic
network, which is expected to support future services.

Risks of FTI Outages for Existing Operational Services
As of December 2009, Harris reported that there are a total of 20,982 services
operating on the FTI network. While FAA has transitioned all 1,808 IP services
supporting FAA flight plans to the new FTI fiber optic network, additional risks will


CC-2010-012
                                                                                                                        6


be introduced when the Agency begins transitioning other FAA services, such as En
Route Automation Modernization (ERAM) and NextGen platforms, which also
require IP technology to operate. 5 Moreover, there are 19,174 existing services that
may be transitioned to the new FTI fiber optic network. According to FAA,
transitioning these remaining services is important because FTI now connects older
FAA systems that provide safety-critical voice and surveillance radar information by
utilizing Time Division Multiplex (TDM) technology, instead of IP services. 6 Table 1
describes the current technologies supporting FTI services, and the percentage of
services operating over the two FTI networks.

      Table 1. FTI Services Operating on the Fiber Optic and Legacy Networks
                              (as of December 2009)
 Technology                       Backbone                        Number of                 Percent of FTI
 Supporting                     Infrastructure                     Services                   Services
 FTI Services
IP                      FTI Fiber Optic Network                       1,808                        8.6%

TDM                     FTI Legacy Network                           19,174                       91.4%
Point-to-Point
    Total                                                            20,982                       100%
Source: OIG Analysis of Harris and FAA Briefings

FAA required Harris to begin transitioning about 1,492 of the remaining services to
the FTI fiber optic network in April 2010; the transition will last several months.
However, FAA has yet to determine whether the remaining 17,682 services will be
transitioned to the new FTI fiber optic network but plans to conduct analyses to
determine feasibility.

Moreover, critical voice and surveillance data communications services continuing to
operate over the FTI legacy network (e.g., AT&T and Sprint networks are used to
support the 17,682 FTI services) are still vulnerable to outages because Harris has
little control over how these networks are managed. For example, according to a
November 2009 internal FAA study, Harris confirmed either the complete lack or
inadequate proof of diversity 7 between FTI primary and alternate network paths at
several critical facilities—including FAA’s Technical Center and Baltimore Air
Traffic Control Tower. According to Harris officials, FTI sites that supposedly had
diversity no longer had it after AT&T or Sprint made upgrades to their network.
Therefore, FAA’s installation of the new FTI fiber optic network was also an effort to

5
    The $2.1 billion ERAM program will replace the existing hardware and software at facilities that manage high-altitude
    traffic.
6
    FTI remaining services use Time Division Multiplex (TDM) technology. Specifically, they require a circuit connection
    between two end points that utilize TDM technology to transport voice and data. The TDM services are considered
    critical because they transport FAA’s critical voice and radar data information in this manner throughout the NAS.
7
    For the purposes of this report, we refer to diversity as instances where there is not adequate separation between FTI
    primary and alternative paths. We did not examine FTI’s overall architecture or design.


CC-2010-012
                                                                                      7


maintain the diversity and redundancy of critical FTI services through a dedicated
infrastructure where only the Government (and its contractor) could provide and
support services to avoid the diversity violations encountered with FTI services
operated over the legacy network.

Risks Regarding FTI Support for NextGen Initiatives
According to FAA, the new FTI fiber optic network also establishes the foundation
for the telecommunications architecture required to support NextGen initiatives.
However, FTI program officials stated that they have yet to determine whether the
fiber optic network can support NextGen and plan to further assess the network to
determine its integrity and ability to support these services. As FAA continues to
modernize the NAS, increased usage of IP services is expected. For example,
emerging NextGen technologies, such as the System Wide Information Management
and Data Communications, will be IP-based and will be implemented on FTI.
However, FAA has yet to establish a timeframe for implementing these services.

Moreover, concerns about FTI have already caused the ADS-B program office to
decide against using FTI to provide its telecommunications services. The ADS-B
contractor (ITT Corporation) stated that ADS-B requires high service availability and
low latency for services to be provided as proposed in the contract. For example, the
ADS-B service requires that an ADS-B report be delivered to Air Traffic Control
automation within 700 milliseconds of receipt at a radio station and that services can
be restored within 6 seconds (e.g., safety-critical capability.) The loss of this
capability raises to an unacceptable level the risk associated with providing safe and
efficient local NAS operations. At the time of the contract award in 2007, ITT did not
believe FTI could meet these requirements.

FAA also faces challenges as Harris continues to design and build out the FTI fiber
optic network to make it more stable and capable of supporting advanced NextGen
technologies. For example, Harris is upgrading several locations that support eight
Centers (i.e., facilities that manage high-altitude traffic.) While the upgrades, slated
for completion in fiscal year 2011, could improve the reliability and efficiency of
network traffic, they could also introduce risks to network operations if not properly
planned and managed. To address FAA’s safety requirements and provide a back-up
capability, Harris is also building out the FTI fiber optic network to support FAA’s
Business Continuity Plan (BCP) initiative. The BCP concept effectively creates a
temporary Center at the William J. Hughes Technical Center in the event of a long-
term Center outage due to natural disasters (e.g., storms, fires, etc.). Harris has
installed the necessary equipment at the Technical Center to implement the spare
Center concept. However, this is considered only an interim step for continuity
planning as FAA must still transition thousands of small remote sites and about
300 larger sites to the new FTI fiber optic network. This will allow Harris to reroute



CC-2010-012
                                                                                                               8


services more efficiently in the event of a disaster.                       However, FAA has yet to
determine if or when these sites will be transitioned.

The new FTI fiber optic network also has vulnerabilities with potential outages and
security risks that will require sustained management and oversight. The new
network is designed to reduce the risks of future widespread failures because it is
partitioned by en route airspace using Border Gateway Protocols (BGP), and the
separate domain will assist in containing any network anomalies to specific delegated
airspace. However, according to the National Institute of Standards and Technology,
the use of BGP does not come without risks. 8 For example, if the BGP routing
protocol fails to carry out the routing function, portions of the network may become
unusable for periods of time—ranging from minutes to hours. While most of the risks
to BGP come from accidental failures, there is also a security risk that attackers could
disable part or the entire network. Therefore, it is imperative that FAA and Harris
institute proper controls to ensure the safety and security of the FTI fiber optic
network.

FAA’s Oversight of FTI Vulnerabilities and the Contractor Should Have
Been More Proactive
FAA’s oversight of FTI and Harris was not as effective as it should have been.
Although FAA has three representatives on-site at the Harris facility to monitor FTI
outages and managers at the two FAA Network Enterprise Management Centers, they
have limited ability to oversee FTI. FAA tends to have a reactive, rather than
proactive approach to assessing network vulnerabilities. For example, at the time of
the outage, neither FAA nor Harris could readily identify the root cause of the outage
or what corrective actions were needed to resolve it.

In 2008, we recommended that FAA improve its processes and procedures for
restoring FTI outages within contractually established timeframes to meet reliability,
maintainability, and availability (RMA) standards. While FAA agreed to take action,
it continues to have problems ensuring FTI services are restored within contract
requirements. FTI services vary depending on the RMA levels. For example, RMA-1
services such as radar must be restored within 6 seconds. However, RMA-4 services,
such as En Route Air to Ground Communications, account for about 80 percent of
FTI services and must be restored within 3 hours. At the time of our audit, we found
that an average of 7 percent of FTI services experienced outages and were not
restored on time. While this may seem like a small percentage, the trend has not
improved, with just over 8 percent of FTI services not meeting availability
requirements as of December 2009 (see table 2).



8
    National Institute of Standards and Technology, Special Publication 800-54, Border Gateway Protocol Security,
    June 2007.


CC-2010-012
                                                                                                                       9


                      Table 2. Percent of Individual Services Not Meeting
                                 Minimum RMA Requirements
    RMA Level*              Meeting                Not Meeting                   Total              Percent Not
                          Requirement              Requirement                                        Meeting
                                                                                                    Requirement
       RMA 1                    313                       21                      334                 6.29 %
       RMA 2                   1,543                      73                     1,616                4.52 %
       RMA 3                    861                       61                      922                 6.62 %
       RMA 4                   19,188                    1,888                  21,076                8.96 %
       RMA 5                   1,937                      87                     2,024                4.30 %
       RMA 7                    134                        9                      143                 6.29 %
    All Services               23,976                    2,139                 26,115**               8.19 %
Source: Total of 26,115 FTI services included in the individual service information data in the December 2009
FTI Performance and Management Report. This is based on the past 12-month reporting period.

To its credit, after the November 2009 outage, FAA established several independent
groups to review the cause of the outage. These groups include FAA’s Safety Event
Response Team, an internal group sponsored by the FTI program office, and another
group of experts chartered by the FAA Administrator. 9 The Administrator’s group
was further tasked to review the integrity of the FTI architectural design, FTI’s ability
to support NextGen initiatives, and any potential threats of future, critical outages.
This group was also asked to examine whether Harris has adequate personnel,
processes, and technology deployed to provide a robust communications network with
adequate security and backup capabilities to meet FAA’s needs. The FAA
Administrator’s group issued its report on April 20, 2010, noting several steps FAA
should take to improve oversight of FTI and its contractor. Many of these bolster our
analysis of actions needed to improve oversight of NAS systems owned and operated
by the private sector, which is further discussed below.

FAA Has Not Developed Best Practices To Oversee NAS Systems Not
Owned or Operated by the Government
Over the last several years, FAA has sought to transition more acquisitions and
services to the private sector to reduce cost. For example, FAA transitioned Flight
Services Stations (FS-21) and FTI programs and is deploying the ADS-B
infrastructure, which will be a service-based system owned and operated by the
private sector. FAA plans to rely on a similar approach to develop and implement
Data Communications, which will be another multibillion-dollar investment. Despite
this shift in its implementation strategy, FAA has not assessed best practices for
overseeing systems not owned or operated by the Government. The ATO’s Chief

9
    The panel convened by the FAA Administrator was made up of the following participants: the Chief Information Officers
    from FAA, FAA’s Air Traffic Organization, and DOT; FAA’s Assistant Chief Counsel for Acquisition and Commercial
    Law; the Assistant to the President and U.S. Chief Technology Officer; the Chief; Executive Officer of Noblis,
    Incorporated; and the former Director of Command, Control, Communications, and Computer Systems.


CC-2010-012
                                                                                    10


Operating Officer has stated that a paradigm shift in FAA’s oversight is needed for
such systems.

Based on discussions with FAA officials and our review of the two independent
reports recently issued, FAA needs to be more proactive in assessing and addressing
FTI network vulnerabilities. FTI program officials acknowledged the need to develop
an in-house capability to monitor FTI network performance. To address this
vulnerability, FAA states it is developing a new automated toolset to monitor FAA
systems operating on FTI’s OPIP fiber optic network. While the toolset does not
allow FAA to directly monitor the status of the FTI network, this is a good first step;
however, it is too early to assess its adequacy. Ultimately, a new oversight approach
for NAS systems provided and serviced by the private sector is needed. We identified
the following actions FAA should consider for FTI and other systems it does not own
or operate—many of which could also address several areas noted in the independent
review groups’ recommendations listed in the enclosure to this letter:

 • Ensure sufficient in-house expertise by providing training and experienced staff
   to the FAA team charged with oversight of the contractor.
 • Use modeling, simulation, and network monitoring tools to examine failure mode
   simulation, routing configuration changes, and alarms for unexpected and
   significant routing changes.
 • Ensure the use of a quality management system that includes checklists, peer
   review, and validation/verification for system changes.
 • Create a government/industry team responsible for identification of
   vulnerabilities, recommendations to improve survivability, and research into new
   and improved methods of building high-availability networks.
 • Require independent periodic reviews of existing and proposed network
   architectures.

Conclusion
FTI plays a significant role in the U.S. aviation system—the largest and safest system
in the world. Maintaining this safety record and transforming the system to meet
future demand depends on reliable equipment and technology, which will become
more complex as FAA continues the transition to NextGen. While the events that led
to the November 2009 outage were legitimate causes for concern, FAA has taken
steps to prevent a recurrence, and other actions are planned. As FAA continues to
implement FTI, it is imperative that the Agency exercise due diligence and become
more proactive in overseeing the contractor’s performance and addressing FTI
network vulnerabilities. It will be important for FAA to follow through with plans to
review FTI architecture to assess whether it can support NextGen. At a minimum,
FAA should use and document best practices to more effectively oversee Harris and


CC-2010-012
                                                                                   11


FTI vulnerabilities. Until FAA fully addresses this issue, the potential for oversight
lapses and service outages remains.

We are encouraged by FAA’s announcement on April 20, 2010, that it is accepting
the findings and recommendations of the independent review panel assigned to
investigate the November 2009 outage. FAA is still determining the best way to
implement the recommendations, which are aimed at improving overall FTI reliability
as well as FAA’s internal procedures for dealing with outages. Another review on the
reliability of FTI to carry critical navigation, communication, and other NextGen
services is pending. Therefore, we are not making any formal recommendations at
this time. However, we will continue to monitor FTI and report on FAA’s progress in
addressing these issues as necessary.

We discussed the results of our review with the Director of Air Traffic Control
Communications Services and incorporated his comments where appropriate. If you
have any questions, please contact me at (202) 366-1959 or Matthew E. Hampton,
Deputy Assistant Inspector General for Aviation and Special Program Audits, at (202)
366-0500.

Sincerely,



Calvin L. Scovel III
Inspector General

Enclosure

cc: Secretary of Transportation
    Federal Aviation Administrator




CC-2010-012
                                                                                                     Enclosure



      Recommendations of the FAA Administrator’s Independent Review Panel
The FAA Administrator’s independent review panel assessing the cause of the
November 19, 2009, outage issued its report on April 20, 2010. The report detailed a
number of recommendations to improve the reliability of FTI and FAA’s internal
communications and procedures for dealing with an FTI outage. 10 The panel’s
recommendations included the following:

     1. Consider using automated tools to implement router configuration changes and
        to support independent verification procedures.

     2. Review maintenance operations and associated checklist design from a human
        factors and risk reduction perspective to help minimize the potential for human
        errors. Consider using the FAA’s Aviation Safety (AVS) and external experts in
        this review.

     3. Implement end-to-end situational awareness of the network, both Local Area
        Networks (LANs) and the FTI, as well as including appropriate applications.

     4. Implement a capability to report network and application service outages and
        describe the impact to FAA customers (internal and external) using a common
        language.

     5. Consider developing a functional model of the FAA’s FTI network to simulate
        and test configuration changes and upgrades.

     6. Consider a needs assessment of the FTI workforce staffing and skill levels to
        ensure adequate levels of network technical support at all times.

     7. Consider modifying the FTI contract award fee and/or performance incentive
        structure based on the observations in this report.

     8. Provide an alternate means for rapid and standardized entry of flight plan
        information into the National Airspace System (NAS) to mitigate failures in the
        flight plan filing system.

     9. Evaluate the ADS-B and FTI network architectures to determine the viability of
        using each as potential back-up for selected services of the other.

     10. Perform a review of currently identified essential services and categorize them
         according to priorities in support of NAS safety and capacity.


10
     “FAA Telecommunication Infrastructure Review Panel Report on November 19, 2009, Outage,” Federal Aviation
     Administration, Washington, D.C., issued April 20, 2010.” The full report and recommendations can be found at:
     http://www.faa.gov/air_traffic/publications/media/FTI_Phase1.pdf.


CC-2010-012
